 Spotlight
 Department of Homeland Security

Ofﬁce of Inspector General                                                                                  September 2012 OIG-12-115



(U) Review of DHS' Information Security Program
for Intelligence Systems for Fiscal Year 2012

Unclassified Summary
We reviewed the Department of Homeland Security’s (DHS) enterprise-wide security program and practices for Top
Secret/Sensitive Compartmented Information intelligence systems. Pursuant to the Federal Information Security Management Act,
we reviewed the department’s security management, implementation, and evaluation of its intelligence activities, including its
policies, procedures, and system security controls for enterprise-wide intelligence systems. In doing so, we assessed the
department’s continuous monitoring, configuration management, identity and access management, incident response and reporting,
risk management, security training, plans of actions and milestones, contingency planning, security capital planning, and systems
inventory.

Since the fiscal year 2011 evaluation, the Office of Intelligence and Analysis (I&A) has improved its oversight of department-wide
systems and established programs to monitor ongoing security practices. I&A has developed and implemented a training program to
educate DHS’ growing number of personnel assigned security duties on intelligence systems. In addition, progress has been made in
collaboration with other DHS components in centralizing plans and priorities for mitigating security weaknesses, streamlining
system configuration management, and maintaining a systems inventory. However, we identified deficiencies in the areas of system
authorization, supply chain threats, and security capital planning. Fieldwork was conducted from April through July 2012.




For Further Information:
Contact our Office of Public Affairs at (202)254-4100, or email us at DHS-OIG.OfficePublicAffairs@oig.dhs.gov
